SEMIANNUAL REPORT




  U.S. ELECTION ASSISTANCE
          COMMISSION,
     OFFICE OF INSPECTOR
             GENERAL




For the Period:
April 1, 2008, Through
September 30, 2008
                         U.S. ELECTION ASSISTANCE COMMISSION
                              OFFICE OF INSPECTOR GENERAL
                         1225 New York Ave. NW - Suite 1100
                                Washington, DC 20005


October 31, 2008

The Honorable Rosemary Rodriguez
Chairwoman
U.S. Election Assistance Commission
1225 New York Avenue NW- Suite 1100
Washington, D.C. 20005


Dear Madam Chairwoman:


        The Inspector General Act of 1978 (Public Law 95-452), as amended,
calls for the preparation of semiannual reports to the Congress
summarizing the activities of the Office of Inspector General (OIG) for the
six-month periods ending each March 31 and September 30. I am pleased
to enclose the report for the period from April 1, 2008 to September 30,
2008.


        The Inspector General’s report covers audits, investigations and
other reviews conducted by the OIG as well as audits conducted by
independent auditors. The report also indicates the status of management
decisions whether to implement or not to implement recommendations
made by the OIG.


        The Act requires that you transmit the report to the appropriate
committees of the Congress within 30 days of receipt, together with any
comments you may wish to make. Comments that you might offer should
be included in your management report that is required to be submitted
along with the Inspector General’s report. The due date for submission of
both reports is November 30, 2008.
      I appreciate the continuing support we have received from the
Chair’s Office and your managers throughout the Commission. Working
together, I believe we have taken positive steps to improve Commission
programs and operations.


                                          Sincerely,



                                          Curtis Crider
                                          Inspector General
Table of Contents

                                                  Page


Election Assistance Commission Profile             1


Office of Inspector General Operations             2

    State Audits                                   3

    Other Activities                               5


Appendices:


   A. Reports Issued                               7
   B. Monetary Impact of Audit Activities          8
   C. Reports with Questioned Costs                9
   D. Reports with Potential Additional Program   10
      Funds
   E. Summary of Reports More Than 6 Months       11
      Old Pending Corrective Action At
      September 30, 2008
   F. Reporting Requirements of the Inspector     13
      General Act
EAC PROFILE

                        Congress established the Election Assistance
                        Commission (EAC) with the passage of the Help
                        America Vote Act (HAVA) in October 2002.

Among EAC’s Key         HAVA requires EAC’s to:
Duties Are:
                        Generate technical guidance on the
Instituting a program   administration of federal elections.
to test and certify
voting systems to       Produce voluntary voting systems guidelines.
standards developed
by EAC
                        Research and report on matters that affect the
                        administration of federal elections.
Administering the use
of $3.1 billion in
Federal payments and    Otherwise provide information and guidance
grants                  with respect to laws, procedures, and
                        technologies affecting the administration of
Researching various     Federal elections.
Federal election
administration topics   Administer payments to States to meet HAVA
                        requirements.


                        Manage funds targeted to certain programs
                        designed to encourage youth participation in
                        elections.


                        Develop a national program for the testing,
                        certification, and decertification of voting
                        systems.


                        Maintain the national mail voter registration form



                                        1
                 that was developed in accordance with the
                 National Voter Registration Act of 1993 (NVRA),
                 report to Congress every two years on the impact
                 of the NVRA on the administration of federal
                 elections, and provide information to States on
                 their responsibilities under that law.


                 Audit organizations which received federal funds
                 authorized by HAVA from the General Services
                 Administration or the Election Assistance
                 Commission.


                 Submit an annual report to Congress describing
                 EAC activities for the previous fiscal year.


OIG OPERATIONS

                 HAVA added the EAC to the list of designated
                 Federal entities covered by the Inspector General
                 Act (IG) of 1978 (Public Law 95-452, as amended).
                 According to the IG Act, inspectors general:


                 Conduct and supervise internal reviews, audits and
                 evaluations of agency programs and operations;


                 Provide leadership and coordination, and
                 recommend actions to management, which: (1)
                 promote economy, efficiency, and effectiveness in
                 agency programs and operations; and (2) prevent
                 and detect fraud, waste, abuse, and
                 mismanagement of government resources; and


                 Keep the agency head, management, and the
                 Congress fully informed regarding problems and



                               2
                     deficiencies, and the progress of corrective action.


                     State Audits

 Audits of the Use   Two audits of State use of HAVA funds were
of HAVA Funds by
States               completed during the six month period. The
                     objective of the audits was to determine whether
                     the States:


                     (1) managed HAVA funds in accordance with the
                     Uniform Administrative Requirements for Grants
                     and Cooperative Agreements with State and Local
                     Governments (the Common Rule) and the Cost
                     Principles for State, Local, and Indian Tribal
                     Governments (Office of Management and Budget
                     Circular A-87) and


                     (2) complied with HAVA requirements for
                     maintaining the election fund and sustaining the
                     State’s level of expenditures for elections.


                     New Mexico


                     The audit of New Mexico identified the following
                     issues that needed to be addressed by the New
                     Mexico Secretary of State:


                            The Office of the Secretary of State paid a
                              contractor $6,271,810 to create a public
                              education campaign on voting matters.
                              Because of uncertainty over the basis for
                              paying the contractor, the lack of
                              contractor support for all costs billed, and




                                   3
         the payment for services billed but not
         performed, we questioned all contract
         payments.


       The Office of the Secretary of State used
         HAVA Section 101 funds of $36,540 to
         pay for costs that were incurred prior to
         the period for which funds were available.


       Equipment purchased with HAVA funds
         was not adequately accounted for.


       New Mexico did not meet its five percent
         matching requirement of $751,568 to
         qualify for HAVA Section 251 funds of
         $14,279,790.


       Interest of $147,799 earned on HAVA
         funds was not deposited timely into the
         state election fund.


       Program income realized from the use of
         equipment purchased with HAVA funds
         was not properly accounted for by the
         Office of the Secretary of State and county
         election offices.


In an April 30, 2008 response to the draft report,
New Mexico generally agreed with the findings and
recommendations and indicated that corrective
actions had been completed or were underway.
The EAC is in process of resolving the findings with
the Secretary of State.




              4
Minnesota
The audit of Minnesota found that Minnesota
generally accounted for and expended HAVA funds
in accordance with the HAVA requirements and
complied      with      the    financial      management
requirements established by the U.S. Election
Assistance Commission. The Secretary of State also
complied with section 251 requirements. However,
the audit found that Minnesota had not timely
deposited     the    remainder    of   its    five   percent
matching share of HAVA Section 251 funding into
the Election Fund.


In a June 12, 2008 response to the draft report,
Minnesota agreed with the report’s finding and
recommendation,        and    provided       documentation
that showed that the matching shortfall and
additional interest earnings were deposited into
the Election Fund.      Minnesota deposited $42,505
into the Election Fund.


Other Activities


The IG Act requires reporting on other categories.
We are reporting no actions in the following
categories:


      Reviews of Legislation, Rules, Regulations
       and Other Issuances


      Investigations


      Matters Referred to Prosecuting Authorities


      Denial of Access to Records

               5
   Significant Revised Management Decisions
    Made During the Period


   Significant Management Decisions with
    Which the Inspector General Disagrees




           6
                                                      APPENDIX A
Reports Issued


Performance      None

Reviews


State Audits     1. Administration of Help America Vote Act Funds
                 by the New Mexico Secretary of State (Assignment
                 No. E-HP-NM-01-07), May 2008


                 2. Administration of Payments Received Under the
                 Help America Vote Act by the State of Minnesota
                 Secretary of State (Assignment Number E-HP-MN-
                 03-08), July 2008


Evaluations      None




                               7
                                                                      APPENDIX B
Monetary Impact Of Audit Activities*

Questioned Costs                                        $ 6,308,350


Potential Additional Program Funds                      $   940,682


Funds be Put to Better Use                              $     0


Total                                                   $ 7,249,032

* Unsupported costs are included in questioned costs.




                                           8
                                                        APPENDIX C
Reports With Questioned Costs
                                         Questioned    Unsupported
            Category           Number      Costs          Costs

A. For which no
management decision had
been made by the
beginning of the reporting
period.                          0           $0            $0

B. Which were issued during
the reporting period.            1       $ 6,308,350       $0

Subtotals (A+B)                  1       $ 6,308,350       $0

C. For which a management
decision was made during the
reporting period.                0           $0            $0

 (i) Dollar value of
recommendations that were
agreed to by management.                     $0            $0

 (ii) Dollar value of
recommendations not agreed
to by management.                            $0            $0

D. For which no management
decision has been made by
the end of the reporting
period.                          1       $ 6,308,350       $0

E. Reports for which no
management decision was
made within 6 months of
issuance.                        0           $0            $0




                                     9
                                                     APPENDIX D
Reports With Potential Additional Program Funds

             Category                     Number   Dollar Value


A. For which no management
decision had been made by the
beginning of the reporting period.          0           $0


B. Which were issued during the
reporting period.                           2       $ 940,682


Subtotals (A+B)                             2       $ 940,682


C. For which a management decision
was made during the reporting
period.                                     1        $ 41,315


 (i) Dollar value of
recommendations that were agreed
to by management.                                    $ 41,315


 (ii) Dollar value of
recommendations that were not
agreed to by management.                               $0


D. For which no management
decision has been made by the end
of the reporting period.                     1      $ 899,367


E. Reports for which no
management decision was made
within six months of issuance.              0          $0




                                     10
                                                                         Appendix E
      Summary of Reports More Than 6 Months Old Pending
               Corrective Action At September 30, 2008

This is a listing of performance, evaluation and reports on the states use of HAVA
funds that more than 6 months with management decisions for which corrective
action has not been completed. It provides report number, title, issue date, and
the number of recommendations without final corrective action.


 E-HP-NJ-04-06      Administration of Payments Received Under the Help America
                    Vote Act by the Office of the Attorney General, New Jersey
                    Department of Law and Public Safety, September 2006,
                    9 Recommendations


 E-HP-IL-07-06      Administration of Payments Received Under the Help America
                    Vote Act by the Illinois State Board of Elections,
                    October 2006, 8 Recommendations


 E-HP-PA-10-06      Administration of Payments Received Under the Help America
                    Vote Act by the Secretary of the Commonwealth of
                    Pennsylvania, January 2007, 2 Recommendations


 E-HP-SC-11-06      Administration of Payments Received Under the Help America
                    Vote Act by the South Carolina Election Commission,
                    January 2007, 4 Recommendations

E-HP-OH-09-06       Administration of Payments Received Under the Help America
                    Vote Act by the Ohio Secretary of State, May 2007, 2
                    Recommendations


E-HP-MD-08-06       Administration of Help America Vote Act Funds by the Maryland
                    State Board of Elections, June 2007, 5 Recommendations


E-HP-KY-02-07       Administration of Payments Received Under the Help America
                    Vote Act by the Commonwealth of Kentucky Sate Board of
                    Elections, August 2007, 1 Recommendation



                                          11
E-HP-MO-04-07     Administration Of Payments Received Under The Help America
                  Vote Act By The Missouri Secretary Of State, October 2007, 1
                  Recommendation


E-HP-WY-03-07     Administration Of Payments Received Under The Help America
                  Vote Act By The Wyoming Secretary Of State Elections Division,
                  January 2008, 2 Recommendations


I-PA-EAC-01-06    Improvements Needed in the Management of Travel by the
                  Election Assistance Commission, July 2007,
                  4 Recommendations


I-EV-EAC-01-07A   Preliminary Assessment of EAC’s Compliance with the
                  Requirements of the Federal Information Security Management
                  Act, August 2007, 4 Recommendations


I-EV-EAC-01-07B   Assessment of the U.S. Election Assistance Commission’s
                  Program and Financial Operations, February 2008, 21
                  Recommendations




                                      12
                                                                  APPENDIX F
Reporting Requirements of the IG Act

Section of Act                      Requirement                        Page

Section 4(a)(2)    Review of Legislation and Regulations               None

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies      None

Section 5(a)(2)    Recommendations for Corrective Action With          None
                   Respect to Significant Problems, Abuses, and
                   Deficiencies

Section 5(a)(3)    Significant Recommendations From Agency’s
                   Previous Report on Which Corrective Action Has
                   Not Been Completed                                  11

Section 5(a)(4)    Matters Referred to Prosecutive Authorities and     None
                   Resulting Convictions

Section 5(a)(5)    Matters Reported to the Head of the Agency          None

Section 5(a)(6)    List of Reports Issued During the Reporting
                   Period                                                7

Section 5(a)(7)    Summary of Significant Reports                        3

Section 5(a)(8)    Statistical Table – Questioned Costs                  9

Section 5(a)(9)    Statistical Table – Recommendations That Funds      None
                   Be Put to Better Use

Section 5(a)(10)   Summary of Audit Reports Issued Before the          None
                   Commencement of the Reporting Period for
                   Which No Management Decision Has Been Made

Section 5(a)(11)   Significant Revised Management Decisions Made       None
                   During the Reporting Period

Section 5(a)(12)   Significant Management Decisions With Which         None
                   the Inspector General Is in Disagreement

Section 5(a)(13)   Information Described Under Section 05(b) of        None
                   the Federal Financial Management Improvement
                   Act of 1996

                                      13
                           The OIG audit mission is to provide timely, high-quality
                           professional products and services that are useful to OIG’s
                           clients. OIG seeks to provide value through its work, which is
                           designed to enhance the economy, efficiency, and effectiveness
                           in EAC operations so they work better and cost less in the
                           context of today's declining resources. OIG also seeks to detect
OIG’s Mission              and prevent fraud, waste, abuse, and mismanagement in these
                           programs and operations. Products and services include
                           traditional financial and performance audits, contract and grant
                           audits, information systems audits, and evaluations.


                           Copies of OIG reports can be requested by e-mail.
                           (eacoig@eac.gov).


                           Mail orders should be sent to:

Obtaining
                           U.S. Election Assistance Commission
Copies of
                           Office of Inspector General
OIG Reports                1225 New York Ave. NW - Suite 1100
                           Washington, DC 20005


                           To order by phone: Voice:     (202) 566-3100
                                                 Fax:    (202) 566-0957


                           By Mail: U.S. Election Assistance Commission
                                     Office of Inspector General
To Report Fraud, Waste               1225 New York Ave. NW - Suite 1100
and Abuse Involving the              Washington, DC 20005
U.S. Election Assistance
                           E-mail:   eacoig@eac.gov
Commission or Help
America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)


                           FAX: 202-566-0957
